June 22, 2012

TO:             Marilyn Tavenner
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Gloria L. Jarmon/
                Deputy Inspector General for Audit Services


SUBJECT:        Delaware Did Not Comply With Federal Requirements To Report All Medicaid
                Overpayment Collections (A-03-11-00203)


Attached, for your information, is an advance copy of our final report on our review of
Delaware’s reporting of Medicaid overpayment collections. We will issue this report to
Delaware’s Division of Medicaid and Medical Assistance within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov, or
Stephen Virbitsky, Regional Inspector General for Audit Services, Region III, at (215) 861-4470
or through email at Stephen.Virbitsky@oig.hhs.gov. Please refer to report number
A-03-11-00203.


Attachment
                                                              O FFICE OF A UDIT S ERVICES , R EGION III
                                                                P UBLIC L EDGER B UILDING , S UITE 316
                                                                   150 S. I NDEPENDENCE M ALL W EST
                                                                             P HILADELPHIA , PA 19106
June 28, 2012

Report Number: A-03-11-00203

Ms. Rosanne Mahaney
Director
Division of Medicaid and Medical Assistance
1901 North DuPont Highway
New Castle, DE 19720

Dear Ms. Mahaney:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Delaware Did Not Comply With Federal Requirements To
Report All Medicaid Overpayment Collections. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Leonard Piccari, Audit Manager, at (215) 861-4493 or through email at
Leonard.Piccari@oig.hhs.gov. Please refer to report number A-03-11-00203 in all
correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Rosanne Mahaney


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 DELAWARE DID NOT COMPLY WITH
FEDERAL REQUIREMENTS TO REPORT
   ALL MEDICAID OVERPAYMENT
         COLLECTIONS




                        Daniel R. Levinson
                         Inspector General

                            June 2012
                          A-03-11-00203
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with Federal requirements. In Delaware, the Delaware Health and Social
Services, Division of Medicaid and Medical Assistance (State agency), administers the Medicaid
program.

Pursuant to section 1905(b) of the Act, States receive a Federal share for medical assistance
based on the Federal medical assistance percentage (FMAP), which varies depending on the
State’s relative per capita income. The American Recovery and Reinvestment Act of 2009,
P.L. No. 111-5 (Recovery Act), enacted February 17, 2009, authorized the States to temporarily
receive a higher FMAP (enhanced rate) during a specified recession adjustment period.

The Medicaid program is intended to be the payer of last resort. Section 1902(a)(25)(A) of the
Act states that a State plan for medical assistance must provide that the State or local agency
administering the plan will take all reasonable measures to ascertain the legal liability of third
parties to pay for care and services available under the plan.

States claim medical assistance and administrative costs, and credit CMS with any refunds due,
on Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program (Form CMS-64). CMS’s Medicaid Budget and Expenditure System allows States to
submit Form CMS-64 electronically.

OBJECTIVE

Our objective was to determine whether the State agency complied with Federal requirements to
report all Medicaid overpayment collections.

SUMMARY OF FINDINGS

The State agency did not comply with Federal requirements to report all Medicaid overpayment
collections. Of the $16,293,609 Medicaid overpayments collected, the State agency failed to
report $16,272,518 ($10,080,378 Federal share). State agency officials said that they believed
the overpayments had been netted out of reported Medicaid expenditures but did not provide
support for such an adjustment.

The State agency reported on Form CMS-64 collections totaling $21,091 for overpayments that
it identified as recoveries resulting from fraud and abuse investigations but calculated a Federal
share of $10,552 based on an incorrect FMAP. Using the correct FMAP, the State agency
should have reported a Federal share of $12,943. The incorrect calculation resulted in a $2,391


                                                 i
understatement of the Federal share. The State agency based its calculation on the FMAP in
effect before the Recovery Act increased the Federal share but did not provide support that the
claims had been paid at the lower rate.

The State agency did not properly report its collections for Medicaid overpayments because it
did not develop and implement effective internal controls to ensure accurate reporting on Form
CMS-64.

RECOMMENDATIONS

We recommend that the State agency:

   •   include unreported Medicaid overpayment collections of $16,272,518 on the next Form
       CMS-64 and refund $10,080,378 to the Federal Government,

   •   identify and report any unreported Medicaid overpayments collected before and after our
       audit period,

   •   account for the incorrectly calculated Federal share for the collections resulting from
       fraud and abuse investigations by refunding $2,391 to the Federal Government,

   •   apply the correct FMAP when reporting Medicaid overpayments on Form CMS-64, and

   •   develop and implement internal controls that will enable the State agency to correctly
       report and refund the Federal share of Medicaid overpayments on Form CMS-64.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our second, third, and
fourth recommendations and described steps that it has taken to address them. The State agency
partially concurred with our fifth recommendation. The State agency said that it had not
completed system enhancements to correctly report Medicaid overpayments on the Form
CMS-64 because of other federally mandated priorities, but that it had properly refunded the
Federal share of overpayments. The State agency did not concur with our first recommendation.
The State agency agreed that overpayments were not reported separately on the Form CMS-64,
as instructed in the State Medicaid Manual, but stated that Delaware’s Form CMS-64 reports do
reflect the collections as an offset to expenditures. The State agency further stated that we
acknowledged this process of netting collections against expenditures in a prior report.

The State agency’s comments appear in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Both our current and prior reports showed that Delaware incorrectly netted unspecified
collections out of expenditures before reporting the expenditures on the Form CMS-64 and
recommended that the State agency implement internal controls to properly report overpayments


                                                ii
and refund the Federal share on Line 9 of the Form CMS-64. The State agency has not amended
its internal controls. As a result, although the State agency was able to show that the collections
were entered into the Medicaid Management Information System, it did not support that the
specific Medicaid overpayments we reviewed had, in fact, been carried through to the netted
expenditures on the Form CMS-64. Therefore, we maintain that our findings and
recommendations are valid.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Medicaid Program ..............................................................................................1
              Payer-of-Last-Resort Requirement ....................................................................1
              Federal Requirements for Medicaid Overpayments ..........................................2
              The State Agency’s Third-Party Liability Services Vendor ..............................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
               Objective ............................................................................................................2
               Scope ..................................................................................................................2
               Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATIONS ..........................................................................3

          COLLECTIONS OF MEDICAID OVERPAYMENTS ................................................4
               Federal Requirements and Guidance .................................................................4
               Collections Not Reported...................................................................................4
               Inadequate Internal Controls ..............................................................................5

          INCORRECT FEDERAL MEDICAL ASSISTANCE PERCENTAGE RATE ...........5
               Federal Requirements and Guidance .................................................................5
               Incorrect Federal Medical Assistance Percentage Rate Used ............................6

          RECOMMENDATIONS ...............................................................................................6

          STATE AGENCY COMMENTS ..................................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................7

OTHER MATTER: REPORTING SYSTEM ERRORS ....................................................7

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iv
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with Federal requirements. In Delaware, the Delaware Health and Social
Services, Division of Medicaid and Medical Assistance (State agency), administers the Medicaid
program.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance costs under Medicaid (Federal share) based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. States
with a lower per capita income relative to the national average are reimbursed a greater share of
their costs. States with a higher per capita income are reimbursed a lesser share. By law, the
FMAP cannot be lower than 50 percent. Although FMAPs are adjusted annually for economic
changes in the States, Congress may increase FMAPs at any time. In fiscal year 2009, the
FMAPs initially ranged from a low of 50 percent to a high of 75.84 percent, depending on the
State.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, authorized the States to temporarily receive a higher FMAP (enhanced rate)
during a specified recession adjustment period. The enhanced rates ranged from 56.20 percent to
84.86 percent. During our audit period, Delaware’s FMAP ranged from 60.19 percent to
64.38 percent.

States claim medical assistance and administrative costs, and credit CMS with any refunds due,
on Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program (Form CMS-64). CMS’s Medicaid Budget and Expenditure System allows States to
submit Form CMS-64 electronically.

Payer-of-Last-Resort Requirement

The Medicaid program is intended to be the payer of last resort. Pursuant to section
1902(a)(25)(A) of the Act, a State plan for medical assistance must provide that the State or local
agency administering the plan take all reasonable measures to ascertain the legal liability of third
parties to pay for care and services available under the plan. Third parties include health
insurers, self-insured plans, group health plans, service benefit plans, managed care
organizations, pharmacy benefit managers, and other parties that are responsible for payment of
a claim for a health care item or service.



                                                 1
Federal Requirements for Medicaid Overpayments

Section 1903(d)(2) of the Act requires States to refund the Federal share of Medicaid
overpayments. Payments for which a third party has directly reimbursed the State are treated as
overpayments. Federal regulations (42 CFR § 433.140(c)) require States that receive third-party
reimbursement to pay the Federal Government its portion of the reimbursement in accordance
with the FMAP for that State. Medicaid payments to providers who have been reimbursed by a
liable third party for the same services are also unallowable overpayments. Federal regulations
(42 CFR § 433.312) require the State to refund the Federal share of those provider overpayments
at the appropriate FMAP rate. 1

The State Agency’s Third-Party Liability Services Vendor

The State agency contracts with Hewlett Packard, a fiscal agent, for Medicaid claims processing.
The fiscal agent contracts with a third-party liability services vendor that reviews the State
agency’s Medicaid claims and determines whether any claims should have been paid by a third
party. The vendor identifies overpayments, some of which the third party pays directly to the
State agency and some of which the State agency collects through provider disallowance of
future payments. The State agency also identifies and collects various overpayments through its
own efforts and through its Audit and Recovery Management Services Section (Audit and
Recovery).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with Federal requirements to
report all Medicaid overpayment collections.

Scope

Our review covered identified collections of Medicaid overpayments totaling $16,293,609 that
the State should have reported on Form CMS-64 during the period January 1, 2009, through
December 31, 2010.

We did not review the overall internal control structure of the State agency. We limited our
internal control review to obtaining an understanding of the identification, collection, and
reporting of program income from Medicaid overpayments.

We performed fieldwork at the State agency offices in New Castle, Delaware, from January
through June 2011.




1
 Pursuant to sections 1903(d)(2)(C) and (D) of the Act and Federal regulations (42 CFR § 433.312(b)), States are
not required to refund the Federal share of uncollectable amounts paid to bankrupt or out-of-business providers.


                                                        2
Methodology

To accomplish our audit objective, we:

   •   reviewed Federal laws, regulations, and guidance governing the collection of Medicaid
       overpayments;

   •   interviewed State agency officials regarding policies and procedures for reporting
       collections of Medicaid overpayments on Form CMS-64;

   •   interviewed the State agency’s fiscal agent regarding procedures for processing claims;

   •   interviewed the fiscal agent’s subcontractor regarding procedures for identifying third-
       party liabilities and collecting overpayments;

   •   obtained summary and claims information for all program income from Medicaid
       collections for the audit period;

   •   reviewed collections of Medicaid overpayments to determine whether they were
       processed directly through the State agency’s Medicaid Management Information System
       and included on the correct lines of Form CMS-64; and

   •   reviewed the State agency’s Form CMS-64 and supporting documentation to determine
       whether the collection of Medicaid overpayments was reported properly.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency did not comply with Federal requirements to report all Medicaid overpayment
collections. Of the $16,293,609 Medicaid overpayments collected, the State agency failed to
report $16,272,518 ($10,080,378 Federal share). State agency officials said that they believed
the overpayments had been netted out of reported Medicaid expenditures but did not provide
support for such adjustments.

The State agency reported on Form CMS-64 collections totaling $21,091 for overpayments that
it identified as recoveries resulting from fraud and abuse investigations but calculated a Federal
share of $10,552 based on an incorrect FMAP. Using the correct FMAP, the State agency
should have reported a Federal share of $12,943. The incorrect calculation resulted in a $2,391
understatement of the Federal share. The State agency based its calculation on the FMAP in
effect before the Recovery Act increased the Federal share but did not provide support that the
claims had been paid at the lower rate.


                                                 3
The State agency did not properly report its collections for Medicaid overpayments because it
did not develop and implement effective internal controls to ensure accurate reporting on Form
CMS-64.

COLLECTIONS OF MEDICAID OVERPAYMENTS

Federal Requirements and Guidance

Section 1903(d)(2)(A) of the Act requires the Secretary of Health and Human Services to recover
Medicaid overpayments. Federal regulations (42 CFR § 433.304) define an overpayment as
“… the amount paid by a Medicaid agency to a provider which is in excess of the amount that is
allowable for services furnished under section 1902 of the Act and which is required to be
refunded under section 1903 of the Act.” Section 1902(a)(25)(A) of the Act identifies third-
party liability as the legal obligation of third parties, i.e., certain individuals, entities, or
programs, to pay all or part of the expenditures for medical assistance furnished under a State
plan. Pursuant to section 1903(d)(2)(B), the Federal share of Medicaid payments for which the
State has been reimbursed directly by a third party is treated as an overpayment. In addition,
Medicaid payments to providers who received third-party payments for the same services would
be unallowable provider overpayments and, as such, must be refunded under section
1903(d)(2)(A). Under the same provision, estate recoveries are also treated as overpayments and
must be refunded to CMS.

Section 2500.1(B) of the State Medicaid Manual (the Manual) instructs States to report
collections of Medicaid overpayments on Line 9 of Form CMS-64 and return the Federal share
of those overpayments. State agencies should report:

   •   third-party liability collections on Line 9.A,

   •   estate probate collections on Line 9.B, and

   •   collections it identified as recoveries resulting from fraud and abuse investigations on
       Line 9.C.

Collections Not Reported

The State agency failed to report collections for Medicaid overpayments totaling $16,272,518
($10,080,378 Federal share). These collections included third-party liability payments and
disallowances, estate probate collections, and collections it identified as recoveries resulting
from fraud and abuse investigations.

Third-Party Liability Collections

The State agency did not report on Line 9.A of Form CMS-64 $10,656,981 ($6,603,157 Federal
share) in third-party liability collections.




                                                 4
   •   The third-party liability vendor identified $9,110,107 ($5,644,663 Federal share) that
       the liable third parties had not paid. The vendor instructed the parties to deposit that
       amount into a State-owned bank account. The third-party liability vendor then notified
       the fiscal agent when the collections had been made. However, the State agency did not
       report the collections on Form CMS-64.

   •   The third-party liability vendor identified $1,546,874 ($958,494 Federal share) in
       disallowances of overpayments to providers who received payments for the same service
       from both the Medicaid program and Medicare or a private insurer. The third-party
       liability vendor notified the State agency of the overpayments and the State agency
       withheld payments for the providers’ later claims to cover the identified amounts.
       However, the State agency did not report the withheld payments as collections on Form
       CMS-64.

Estate Probate and Injury Settlement Collections

The State agency did not report on Line 9.B of Form CMS-64 $5,612,050 ($3,475,023 Federal
share) in overpayments collected through recoveries from estates and trauma and injury
settlements. These overpayments represented amounts the State agency collected from a
recipient’s estate or medical settlement to recoup prior Medicaid payments made on behalf of the
recipient.

Fraud and Abuse Collections

The State agency did not report on Line 9.C of Form CMS-64 $3,487 ($2,198 Federal share) in
overpayments collected as a result of fraud and abuse investigations. Audit & Recovery
identified the overpayments in its reviews and the State agency collected them from Medicaid
recipients during the third and fourth quarters of calendar year (CY) 2010.

Inadequate Internal Controls

The State agency did not have adequate internal controls to assure that it properly reported its
collections from Medicaid overpayments. The collections were combined with various other
adjustments and entered as an aggregate amount into the Medicaid Management Information
System (MMIS). However, the State agency did not have internal controls to verify or track the
collections once they entered the MMIS or to report them correctly on Form CMS-64. State
agency officials said that they believed the aggregate amount was netted with expenditures in the
MMIS before the expenditures were reported on Form CMS-64 but could not provide support for
this explanation.

INCORRECT FEDERAL MEDICAL ASSISTANCE PERCENTAGE RATE

Federal Requirements and Guidance

Federal regulations (42 CFR § 433.140(c)) require any State that receives a Federal share in
Medicaid payments for which it receives third-party reimbursement to pay the Federal


                                                5
Government its portion of the reimbursement determined in accordance with the FMAP for that
State.

According to the Manual, section 2500.6(B), the State agency must “upon receipt of such
refunds, determine the date or period of the expenditure for which the refund is made to establish
the FMAP at which the original expenditure was matched by the Federal government. Make
refunds of the Federal share at the FMAP for which you were reimbursed.” Section 2500.6
further states, “When collections cannot be related to a specific period, compute the Federal
share at the FMAP in effect at the time the collection was received.”

Incorrect Federal Medical Assistance Percentage Rate Used

For CY 2009 and the first two quarters of CY 2010, the State agency reported a total of $21,091
in collections resulting from fraud and abuse investigations. However, the State agency used an
incorrect FMAP for calculating the Federal share for those collections. The State agency
reported a Federal share of $10,552, which it calculated based on an incorrect FMAP of
50 percent. Using the correct FMAP for each reporting quarter, the State agency should have
reported a Federal share of $12,943. This resulted in a $2,391 understatement of the Federal
share.

State agency officials said that they believed the accounting system netted the collections out of
expenditures before the expenditures were reported on Form CMS-64. Therefore, officials did
not adjust the accounting system to reflect the enhanced rate for Line 9. When Audit
& Recovery reported some collections on Line 9.C, the accounting system based the calculation
on the lower FMAP in effect before the Recovery Act increased the Federal share. However, the
State agency did not provide support that the claims had been paid at the lower rate. According
to CMS guidance in the Manual, because the collections could not be related to a specific period,
the State agency should have computed the Federal share at the rate in effect at the time the
collection was received.

RECOMMENDATIONS

We recommend that the State agency:

   •   include unreported Medicaid overpayment collections of $16,272,518 on the next Form
       CMS-64 and refund $10,080,378 to the Federal Government,

   •   identify and report any unreported Medicaid overpayments collected before and after our
       audit period,

   •   account for the incorrectly calculated Federal share for the collections resulting from
       fraud and abuse investigations by refunding $2,391 to the Federal Government,

   •   apply the correct FMAP when reporting Medicaid overpayments on Form CMS-64, and




                                                6
    •   develop and implement internal controls that will enable the State agency to correctly
        report and refund the Federal share of Medicaid overpayments on Form CMS-64.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our second, third, and
fourth recommendations and described steps that it has taken to address them. The State agency
partially concurred with our fifth recommendation. The State agency said that it had not
completed system enhancements to correctly report Medicaid overpayments on the Form
CMS-64 because of other federally mandated priorities, but that it had properly refunded the
Federal share of overpayments. The State agency did not concur with our first recommendation.
The State agency agreed that overpayments were not reported separately on the Form CMS-64,
as instructed in the Manual, but stated that Delaware’s Form CMS-64 reports do reflect the
collections as an offset to expenditures. The State agency further stated that we acknowledged
this process of netting collections against expenditures in a prior report.

The State agency’s comments appear in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Our audit showed that Delaware’s accounting system had not been adjusted to correctly report
Medicaid overpayments. Both our current and prior reports 2 showed that Delaware incorrectly
netted unspecified collections out of expenditures before reporting the expenditures on the Form
CMS-64 and recommended that the State agency implement internal controls to properly report
overpayments and refund the Federal share on Line 9 of the Form CMS-64. The State agency
has not amended its internal controls. As a result, although the State agency was able to show
that the collections were entered into the MMIS, it did not support that the specific Medicaid
overpayments we reviewed had, in fact, been carried through to the netted expenditures on the
Form CMS-64. Therefore, we maintain that our findings and recommendations are valid.

                    OTHER MATTER: REPORTING SYSTEM ERRORS

According to the Manual, section 2500.1(B), States are to use Line 9—Collections—of Form
CMS-64 for “all collections received during the quarter.” However, we noted that for five
quarters, from October 1, 2009, through December 31, 2010, the State agency incorrectly
reported adjustments to waiver claims as overpayment collections on Line 9 of Form CMS-64.
Because CMS’s Medicaid Budget and Expenditure System would not accept negative
adjustments electronically submitted on Form CMS-64.9 waiver schedules, CMS instructed the
State agency to record those adjustments on Line 9 of Form CMS-64. However, waiver
adjustments do not represent collections of Medicaid overpayments as described in the Manual.




2
 Review of Delaware’s Accounts Receivable System for Medicaid Provider Overpayments, (A-03-04-00205), issued
October 13, 2004.


                                                     7
APPENDIX
                                                                                              Page 1 of 3
                       APPENDIX: STATE AGENCY COMMENTS


        DELAWARE HEALTH 

        AND SOCIAL SERVICES 

         DIVISION OF 

         MEDICAID & MEDICAL ASSISTANCE 

                                                                              OFFICE OF THE DIRECTOR




                                                                       March 14, 2012

Mr. Stephen Virbitsky
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Inspector General
Office of Audit Services, Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106-3499

Report Number: A-03-11-00203

Dear Mr. Virbitsky:

Thank you for the opportunity to review the DHHS, Office of Inspector General's draft report
entitled Delaware Did Not Comply with Federal Requirements (0 Report All Medicaid
Overpayment Collections. Please find Delaware's response to the OIG recommendations below.

Recommendation 1: We recommend tbat the State agency include unreported Medicaid
overpayment collections of $16,272,518 on tbe next Form CMS-64 and refund $10,080,378
to the Federal Government.

   Delaware does not concur with this recommendation. The State's MMIS does identify and 

   report all collections at the point they are dispositioned, but it does not currently differentiate 

   between the types of collections and recovered overpayments. Collections are used to offset 

   the weekly paid claims to ensure that the Federal government is fillly credited for collected 

   overpayments. The net expenditure is reported on the CMS-64. Delaware concedes that 

   overpayments were not reported separately on the CMS-64 in the prescribed format. 

   Nevertheless, Delaware's CMS-64 reports do reflect the collections as an offset to 

   expenditures. 


   The OIG report states that "State Agency officials said they believed the accounting system 

   netted the collections out of expenditures before the expenditures were reported on the Form 

   CMS-64 but could not provide support for this explanation." The State strongly disagrees 

   with this description. DeJaware is certain that net expenditures reported on the CMS-64 

   reflect overpayment collections. During the spring 0[2011, stafTfrom DHSS and the 

   Medicaid fiscal agent, HPES, provided detailed, transaction-level reports that demonstrated 

   to the satisfaction of the onsite OIG reviewers that Delaware's MMIS process netted out 

   recoupments from expenditures within a reporting quarter. This docwnentation, which 





            P.O. BOX 906· NEW CASTLE. DELAWARE. 19720. TELEPHONE : (302) 255-9500
                                                                                          Page 2 of 3



    included wire transfers, invoices, bank statements, and funding reports, was provided for a
    subset of the total collections. That same process, however, is applied to all collections,
    thereby enabling the State to be confident in stating that each quarterly federal claim is net of
    collections, even though the collections were not reported separately on the CMS-64.

    Additionally, the process of netting collections against expenditures in Delaware has been
    acknowledged by the DIG in the past and was documented in OIG Report Number A-03-04­
    00205. In that review, the OIG reviewed Delaware's Accounts Receivable System for
    Medicaid Provider Overpayments. The report included the following:

       The Department does not have an accounting .~ystem that separately ident(fies collected
       overpayments from other collections. Through its.fiscal agent, the Department enters each
       overpayment ident~fied qfter June 30, 2003 into the MMIS as an account receivable. The
       MMIS is not set up to separate overpayment collections from other collections, but instead
       consolidated all account receivables collected through recoupments, refunds and voided
       claims. The Department then netted the collections against expenditures reported on the
       CMS-64. For fiscal year 2003, the Department:netted $89.2 million in collections against
       expenditures. The Department could not identifY what portion a.fthe $89.2 million
       represented ovel1Jayments that should have been reported on the CMS-64.

   That report, while pointing out that overpayments were incorrectly reported on the CMS-64,
   did not conclude that the State had failed to properly account for collected overpayments as it
   related to the State's federal claim. Consequently, there was no recommendation to refund
   any part of the collected overpayments to the Federal government. Delaware did concur with
   recommendation to modify its claims processing system and CMS-64 reporting procedures to
   accurately report overpayments on the CMS-64. While the State has begun work to enable
   the MMIS to separate overpayment collections by the reporting categories on the CMS-64,
   completion has been delayed as a result of higher priority projects to comply with federal
   mandates under the Deficit Reduction Act, Affordable Care Act, HIPAA 5010 and lCD-10,
   etc. MMIS changes that must be made related to the mandated RAC audits will facilitate the
   State's ability to report other types of collections separately.

Recommendation 2: We recommend that the State agency identify and report any
unreported Medicaid overpayments collected before and after our audit period.

   The State concurs with this recommendation and is working toward being able to report
   overpayments by the specified categories on the CMS-64. Delaware wishes to reiterate,
   however, that state's federal Medicaid claims have been reduced by the amount offhe
   overpayment collections before, during and after the audit period.

I~ecommendation 3: We recommend that the State agency account for the incorrectly
calculated Federal share for the collections resulting from fraud and abuse investigations
by refunding $2,391 to the Federal Government.

   The State concurs with this recommendation and will make the necessary adjustment on the
   next CMS-64 report.
                                                                                          Page 3 of 3



 Recommendation 4: We recommend that the State agency apply the correct FMAP when
 reporting Medicaid overpayments Form CMS-64

        The State concurs with this recommendation and is amending collections and reporting
        procedures in the Audit and Recovery Management Services unit to assure the application of
        the correct FMAP.

Recommendation 5: We recommend that the State agency develop and implement internal
controls to correctly report and refund the Federal share of Medicaid overpayments on
Form CMS-64.

        The State believes that this recommendation involves two separate issues: 1) correct
        reporting on the CMS-64 and 2) refunding the Federal share of Medicaid overpayments.

        Delaware concurs with the recommendation to develop controls to correctly report
        overpayments on the CMS-64. As noted above, the State has initiated efforts to modify the
        MMIS so that overpayments could be reported separately and will continue to advance this
        work as resources permit. Unfortunately, these system enhancements have not been
        completed due to federally mandated projects which have assumed a higher priority.

        The State contends that the Federal share of Medicaid overpayments have been correctly
        refunded to the Federal government.


I appreciate the opportunity to respond to the draft report and hope that the final report will be
amended to reflect Delaware's concerns with the findings. If you have any questions, please
contact Linda Murphy at 302-255-9801.


                                                                      Sincerely,



                                                                      Rosanne Mahaney
                                                                      Director



cc: 	      Stephen Groff
           Beth Laucius
           Linda Murphy
           HalTY Roberts
